Case: 20-2297

Document: 44

Page: 1

Filed: 07/08/2021

NOTE: This order is nonprecedential.

States; Court of appeals:
for tlje jfeberal Circuit
NAGUI MANKARUSE,
Plaintiff-Appellant
v.
INTEL CORPORATION, ACER AMERICA
CORPORATION, DANIEL PATRICK DOCTER,
MATTHEW ROBERT HULSE, ANDY D. BRYANT,
DOES 1-10, INCLUSIVE,
Defendants-Appellees
2020-2297
Appeal from the United States District Court for the
Central District of California in No. 8:19-cv-01902-DOCJDE, Judge David O. Carter.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before MOORE, Chief Judge, NEWMAN, LOURIE, LlNN1,
Dyk, Prost, O’Malley, Reyna, Taranto, Chen, Hughes,
and Stoll, Circuit Judges.

1
Circuit Judge Linn participated only in the decision
on the petition for panel rehearing.

Case: 20-2297

Document: 44

Page: 2

Filed: 07/08/2021

MANKARUSE v. INTEL CORPORATION

2

Per Curiam.
ORDER
Nagui Mankaruse filed a combined petition for panel
rehearing and rehearing en banc. The petition was referred
to the panel that heard the appeal, and thereafter the peti­
tion for rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on July 15, 2021.

For the Court
July 8. 2021
Date

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case: 20-2297

Document: 41.

Page: 1

Filed: 05/07/2021

NOTE: This disposition is nonprecedential.

fHntteb States! Court of appeals
for tfje Jfeberal Circuit
NAGUI MANKARUSE,
Plaintiff-Appellant
v.
INTEL CORPORATION, ACER AMERICA
CORPORATION, DANIEL PATRICK DOCTER,
MATTHEW ROBERT HULSE, ANDY D. BRYANT,
DOES 1-10, INCLUSIVE,
Defendants-Appellees
2020-2297
Appeal from the United States District Court for the
Central District of California in No. 8:19-cv-01902-DOCJDE, Judge David O. Carter.
Decided: May 7, 2021
NAGUI MANKARUSE, Huntington Beach, CA, pro se.
Peter Gratzinger, Munger Tolies and Olson LLP, Los
Angeles, CA, for defendants-appellees.
Before TARANTO, Linn, and CHEN, Circuit Judges.

Case: 20-2297

Document: 41

2

Page: 2

Filed: 05/07/2021

MANKARUSE v. INTEL CORPORATION

Taranto, Circuit Judge.
Nagui Mankaruse, proceeding pro se, brought this ac­
tion in district court against Intel Corporation, Acer Amer­
ica Corporation, and a host of Intel employees in their
personal capacity (collectively, Intel), alleging patent in­
fringement and trade-secret misappropriation. Having de­
fended against similar, and in large part the same, claims
by Mr. Mankaruse in California state courts three times
before, Intel asked the district court for, and received, an
order deeming Mr. Mankaruse a vexatious litigant, requir­
ing him to seek court permission before filing further cases
against it, and also requiring him to post a $25,000 security
bond before proceeding with the present case. See Order,
Mankaruse v. Intel Corp., No. 8:19-cv-01902-DOC (C.D.
Cal. Jan. 27, 2020), ECF No. 34; Intel Appx. 1-2. Mr.
Mankaruse failed to post the required bond, and the dis­
trict court dismissed this case. We affirm.
I
The district court’s order in this case expressly relied
on its similar, more extensively explained order in
Mankaruse v. Raytheon CoNo. 8:19-cv-01904-DOC, 2020
WL 2405258, at *1 (C.D. Cal. Jan. 23, 2020) {Raytheon PreFiling Order). See Intel Appx. 1 (“The Court adopts the
legal and factual findings in [the Raytheon] order to
GRANT Defendant’s Motion here”). In fact, the order in
this case expressly covers the Raytheon defendants as well
as the defendants in this case. Intel Appx. 1-2. Today we
affirm the Raytheon Pre-Filing Order. Mankaruse u. Ray­
theon Co., No. 2020-2309 (Fed. Cir. May 7, 2021). We rely
here on our opinion in the Raytheon matter.
Mr. Mankaruse filed this action in the Central District
of California in October 2019. See Complaint, Mankaruse
o. Intel Corp., No. 8:19-cv-01902 (C.D. Cal. Oct. 3, 2019),
ECF No. 1. The action, for infringement of a U.S. patent
and a Canadian patent and for trade-secret misappropria­
tion, is nearly identical to the Raytheon action, which Mr.

Case: 20-2297

Document: 41

MANKARUSE v. INTEL CORPORATION

Page: 3

Filed: 05/07/2021

3

Mankaruse filed the same day. Previously, Mr. Mankaruse
had sued Intel three times in state court, asserting various
claims for trade-secret misappropriation, breach of con­
tract, and torts, based on purported disclosures of trade se­
crets and of the technology described in the two patents
that he made to Intel as early as 2004. See Intel Appx. 45
f 22, 49 ^ 30; see also Mankaruse v. Intel Corp., Case No.
30-2016-00884058 (Orange Cnty. Super. Ct. filed Oct. 31,
2016); Mankaruse v. Intel Corp., Case No. 30-201800971116 (Orange Cnty. Super. Ct. filed Feb. 2, 2018);
Mankaruse v. Intel Corp., Case No. 30-2018-00971179 (Or­
ange Cnty. Super. Ct. filed Feb. 2, 2018). The second and
third cases were filed only three weeks after the state court
dismissed Mr. Mankaruse’s claims in the first case (but be­
fore that judgment was final) and consisted of separated
claims that he had filed in his first case. See Intel Appx.
388 (final judgment in Case No. 30-2016-008848058); id. at
320, 395 (complaints in additional cases). Of importance
here, Mr. Mankaruse also had filed numerous unsuccessful
lawsuits on similar claims against Raytheon between 2013
and 2017. See Mankaruse v. Raytheon Co., slip op. at 2—5.
The history of suits against Raytheon alone, we hold today,
supported a determination of vexatiousness, a pre-filingapproval order, and a bond requirement. Id. at 6-11.
In the present case, on January 3, 2020—after Mr.
Mankaruse had filed an amended complaint in this matter
and Raytheon had sought the vexatiousness determina­
tion, pre-filing-approval, and bond relief in the case against
it—Intel sought the same determination and relief here.
Intel Appx. 170—80. In its motion, Intel referred the court
to Raytheon’s motion, electing “not [to] repeat the history
of [Mr. Mankaruse’s] unsuccessful state court actions
against Raytheon and Intel” set forth in Raytheon’s motion
and “fully adopting]” those facts, while supplementing
them with Intel-specific background. Id. at 175.
On January 21; 2020, the district court held a “hearing”
regarding both the Intel and Raytheon motions, Intel Appx.

Case: 20-2297

4

Document: 41

Page: 4

Filed: 05/07/2021

MANKARUSE v. INTEL CORPORATION

760 (transcript first page showing captions for both cases)
see id. at 761-63 (listing counsel for both bases), during
which Mr. Mankaruse and counsel for both Intel and Ray­
theon were present, and the court invited Mr. Mankaruse
to argue first, with counsel for both defendants to respond
afterwards, id. at 769; see also id. at 761-93. Mr.
Mankaruse argued first, and the court then invited Ray­
theon’s counsel to present argument on the vexatious liti­
gant motion, id. at 775-79, before providing Mr.
Mankaruse an opportunity for rebuttal, id. at 779-82. At
that time the court had to end the day’s hearing, and Intel,
not having presented its argument on the substance of its
motion, stated that its motion had a separate hearing date
set for February 3, 2020, but it “rel[ied] on the same argu­
ments as the Raytheon defendants.” Id. at 791. The court,
seemingly concerned not to deny Intel a full opportunity to
argue its case, indicated that it anticipated seeing Intel,
and Mr. Mankaruse for rebuttal, on February 3. Id.
On January 23, 2020, evidently not seeing a need to
hear more from Intel, the district court gave the same relief
to Intel in this case that it gave, the same day, to Raytheon,
relying on the explanation set out in the Raytheon Pre-Fil­
ing Order. Id. at 1-2. It found Mr. Mankaruse a vexatious
litigant. It required pre-filing approval of pro se cases
against Intel (and, even in this order, against Raytheon).
And it required a bond of $25,000—over and above the bond
in the same amount required in the Raytheon matter.
When Mr. Mankaruse failed to post the bond in the time
specified, the district court dismissed the claims and en­
tered a final judgment on May 18, 2020. Id. at 3-4. We
have jurisdiction over Mr. Mankaruse’s appeal.
II
A
Mr. Mankaruse argues that the district court failed to
provide him an adequate opportunity to be heard specifi­
cally on the Intel motions (a contention he has not made

Case: 20-2297

Document: 41

MANKARUSE v. INTEL CORPORATION

Page: 5

Filed: 05/07/2021

5

regarding Raytheon’s motions). Mankaruse Opening Br.
10-11. We reject this argument.
Mr. Mankaruse had notice of Intel’s motion and re­
ceived an opportunity to brief the issue to the district court.
See Intel Appx. 473-711. At the “hearing” on January 21,
2020, both the Intel and Raytheon cases were called, and
counsel for both Intel and Raytheon were introduced. See
id. at 764-67. The district court began by giving Mr.
Mankaruse the opportunity to present his arguments
against the motions, and he did so. The transcript reveals
that Mr. Mankaruse, in making his arguments, discussed
both Raytheon and Intel. See id. at 779-82. He spoke of
“three categories” of cases, relating to employment, breach
of contract, and intellectual property, and stated that one
of those “categories”—the trade-secret claims—related to
both Intel and Raytheon. Id. at 773-74 (“The third cate­
gory was two - - two trade secret cases, one against Intel
and one against Raytheon.”). He argued the similarity of
Intel and Raytheon for purposes of the motions for security
bond. Id. at 781. The same is true of his briefing on the
issue—Mr. Mankaruse repeatedly addressed the issue as a
unitary one, related to Raytheon and Intel collectively.
See, e.g., id. at 475 (referring to “defendants Intel, et al and
Raytheon et al”); id. at 477 (discussing “these two groups
of defendants in the two Cases”). And Intel, for its part,
made clear that it was relying on the same arguments that
Raytheon made, id. at 175, and Mr. Mankaruse does not
complain about his opportunity to respond to Raytheon’s
arguments.
In these circumstances, we see no prejudicially inade­
quate opportunity for Mr. Mankaruse to present his case
against the motions. In a related context, the Ninth Circuit
has stated that “an opportunity to be heard does not re­
quire an oral or evidentiary hearing on the issue,” but ra­
ther “[t]he opportunity to brief the issue fully satisfies due
process requirements.” Pac. Harbor Capital, Inc. v.

Case: 20-2297

6

Document: 41

Page: 6

Filed: 05/07/2021

MANKARUSE v. INTEL CORPORATION

Carnival Air Lines, Inc., 210 F.3d 1112, 1118 (9th Cir.
2000).1 In any event, Mr. Mankaruse had the opportunity
to present oral arguments to the court, and he was not re­
stricted to arguing about Raytheon’s motion and he did not
so restrict his argument.
We cannot say that Mr.
Mankaruse was not given “an opportunity to oppose the en­
try of the order.” De Long, 912 F.2d at 1147.
B
On the merits of the vexatiousness determination and
imposition of a pre-filing-approval requirement, we con. elude that this case, though different from the Raytheon
case, is not different in a way that changes the result. In
the Raytheon case, the earlier litigation against Raytheon
alone sufficed to support the district court’s order. Here,
we need not decide whether the earlier litigation against
Intel alone—a lesser volume—would support the district
court’s order. We see nothing in Ninth Circuit law that
limits the basis for such an order to litigation directly
against the specific defendant, to the exclusion of closely
related litigation against others, where the totality augurs
further frivolous, harassing, burdensome litigation against
the specific party now seeking a pre-filing-approval order.
Mr. Mankaruse mentions the Ninth’s Circuit decision
in Ringgold-Lockhart v. County of Los Angeles, 761 F.3d
1057 (9th Cir. 2014). That decision reflects the showing
needed to justify an order of this sort. The Ninth Circuit
vacated and remanded the district court’s pre-filing order,
after determining that the substantive findings of frivo­
lousness and harassment were unsupported by the record
of the plaintiffs filings, and that the district court had not

1 The Ninth Circuit relied on Pacific Harbor in its
decision in Molski v. Evergreen Dynasty Corp., 500 F.3d
1047, 1058 (9th Cir. 2007), about pre-filing-approval or­
ders.

Case: 20-2297

Document: 41

Page: 7

MANKARUSE V. INTEL CORPORATION

Filed: 05/07/2021

7

considered other remedies. Ringgold-Lockhart, 761 F.3d at
1064-66. The Ninth Circuit did not restrict the focus to
previous filings against the specific defendant.
Here, Mr. Mankaruse’s history of litigation against
Raytheon provided a concrete basis for finding that there
was a sufficiently high probability of harassing, frivolous
litigation to justify a pre-filing-approval order (and bond
requirement) in his new case against Raytheon. See
Mankaruse v. Raytheon Co., slip op. at 6-11. The present
case against Intel is nearly identical in subject matter to
that case against Raytheon. A similar determination is
warranted in this case based on the Raytheon-related pat­
tern, a smaller Intel-related pattern, and the strong over­
lap of the two cases. Moreover, unlike the district court in
Ringgold-Lockhart, the district court in this matter (by
adoption of the legal and factual findings in the Raytheon
matter) considered whether other remedies were adequate,
but determined, with a sound basis, that they were not,
given Mr. Mankaruse’s earlier behavior. Compare Ray­
theon Pre-Filing Order, 2020 WL 2405258, at *1, with
Ringgold-Lockhart, 761 F.3d at 1065 (discussing use of
Rule 11 sanctions before resorting to declaring vexatious
litigant). Recognizing the importance of limiting pre-filingapproval orders to rare cases, we find no abuse of discretion
in this case under Ninth Circuit standards.
C
We see no material difference between this case and
the Raytheon case regarding the propriety of the bond or,
therefore, the dismissal after Mr. Mankaruse failed to post
the required bond in the specified time.
Ill
For the foregoing reasons, we affirm the district court’s
dismissal of Mr. Mankaruse’s suit against Intel.
The parties shall bear their own costs.

Case: 20-2297

8

Document: 41

Page: 8

Filed: 05/07/2021

MANKARUSE v. INTEL CORPORATION

AFFIRMED

Case 8:19-cv-01902-DOC-JDE Document34 Filed 01/27/20 Page lot2 PagelD#:1173

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SA CV 19-1902-DOC (JDEx)

Date: January 27, 2020

Title: NAGUI MANKARUSE ET AL V. INTEL CORPORATION
PRESENT:
THE HONORABLE DAVID O. CARTER. JUDGE
Kelly Davis
Courtroom Clerk

Not Present
Court Reporter

ATTORNEYS PRESENT FOR
PLAINTIFF:
None Present

ATTORNEYS PRESENT FOR
DEFENDANT:

PROCEEDINGS (IN CHAMBERS):

None Present

ORDER GRANTING MOTION TO
DECLARE PLAINTIFF A
VEXATIOUS LITIGANT [27]

Before the Court is Defendant Intel’s (“Defendant”) Motion to Declare Plaintiff a
Vexatious Litigant (“Motion”) (Dkt. 27). Having reviewed the papers and considered the
parties’ oral arguments on January 21,2020, the Court GRANTS Defendant’s Motion. i
The Court incorporates its order in the related case Mankaruse v. Raytheon et al,
Case No. 8:19-cv-1904 DOC (JDEx) (the “Raytheon Action”) granting an almost
identical motion declaring Plaintiff a vexatious litigant. See Raytheon Action at Dkt. 68.
The Court adopts the legal and factual findings in that order to GRANT Defendant’s
Motion here.
Given Plaintiffs continued filings against Raytheon and Intel, the Court
DECLARES Plaintiff a vexatious litigant and finds that a prefiling order is appropriate
moving forward. Plaintiff is ORDERED to seek prefiling approval in this Court prior to
i

The Court notes that the hearing on January 21, 2020 was regarding the Motion to Declare
Plaintiff a Vexatious Litigant in the Raytheon Action. However, Plaintiff argued his position
hilly on that day, and the Motion in the Raytheon Action is almost identical to the Motion in the
instant action.

Case 8:19-cv-01902-DOC-JDE Document 34 Filed 01/27/20 Page 2 of 2 PagelD#:1174
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SA CV 19-1902-DOC (JDEx)

Date: January 27, 2020
Page 2

filing future cases in the Central District of California pro se against Raytheon, TRS,
Intel, any of their employees, officers, or agents regarding Plaintiffs prior employment
with these entities or regarding any alleged stolen trade secrets or patent infringement by
these actors. See C.D. Cal. R. 83-8.2. This order will not deny Plaintiff access to the
courts generally. Instead, it subjects Plaintiff to an initial screening regarding a subset of
potential future litigation against particular parties that Plaintiff has unfairly targeted pro
se. The Court also GRANTS Intel’s request for a security bond in the amount of $25,000.
Id. This bond is in addition to the bond that must be paid to proceed in the Raytheon
Action. Plaintiff must pay the security bond on or before February 29, 2020 or the action
will be dismissed. The Court STAYS the matter until the payment of the security bond.
I.

Disposition

Accordingly, the Court GRANTS Defendant’s Motion. The Court DECLARES
Plaintiff a vexatious litigant, ISSUES a prefiling order as described above, and ORDERS
a security bond in the amount of $25,000. The Court STAYS the action pending payment
of the security bond.
The Clerk shall serve this minute order on the parties.
Initials of Deputy Clerk kd
MINUTES FORM 11
CIVIL-GEN

Additional material
from this filing is
available in the
Clerk's Office.

